                                                              Report Summary
Social Security Administration
Office of the Inspector General



Congressional Response Report: Allegations of Mismanagement at the
Falls Church, Virginia Office of Hearings and Appeals (A-13-04-24081)
Our objective was to determine whether applicable policies and procedures were followed in
addressing an employee’s allegations of mismanagement. Specifically, we determined
whether the Social Security Administration (SSA) was involved in any illegal activity or gross
mismanagement relating to an SSA employee’s concerns communicated to the
Subcommittee on Social Security.

In a December 4, 2003 letter, Congressman E. Clay Shaw, Jr. requested that we review an
SSA employee’s concerns to ensure there was no illegal activity or gross mismanagement
with respect to those concerns. SSA’s Office of Hearings and Appeals located in Falls
Church, Virginia, was the focus of the employee’s concerns.

We reviewed the concerns alleged by the employee. We determined that SSA followed the
applicable policies and procedures in addressing the employee’s allegations of
mismanagement, therefore, we do not plan to review this issue further.

No recommendations were made.
